               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Use of Data Within Finance and
       Planning’s Field Budget Process

                       Audit Report




                                         September 20, 2012

Report Number FF-AR-12-005
                                                                       September 20, 2012

                                              Use of Data Within Finance and Planning’s
                                                                   Field Budget Process

                                                             Report Number FF-AR-12-005



BACKGROUND:
In January 2011, the U.S. Postal                 procedures in place that adequately
Service announced an agency-wide                 detailed the required tasks or a timeline
restructuring effort that resulted in            to manage the transition.
closing the Southeast Area Office. The
restructuring required the budget and            Because financial accounts were not
account balances of the Southeast Area           moved to another Postal Service area,
administrative office to be closed and           as appropriate, the budget was not
reassigned to other active Postal                eliminated or reassigned, and about $15
Service area administrative offices.             million in revenue and expenses
                                                 continued to accumulate in Southeast
The audit objective was to determine             Area accounts after the area closed.
whether the Postal Service Finance and           Although we did not identify any specific
Planning Department effectively used             instances, incorrect business decisions
available data to monitor the field              and performance evaluations may result
budget, revenue, and expenses during             if they are based on inaccurate or
the closing of the Southeast Area.               incomplete data. For example,
                                                 management may renew transportation
WHAT THE OIG FOUND:                              contracts unnecessarily or for additional
The Postal Service’s Finance and                 costs because of insufficient data.
Planning Department did not effectively          Further, with optimization anticipated to
use available data to monitor the field          continue, without a revised budget that
budget, revenue, and expense                     reflects anticipated savings from closing
variances occurring after the closing of         offices, the Postal Service is at risk of
the Southeast Area office. The Postal            not realizing those savings.
Service closed the Southeast Area in
February 2011; however, it did not move          WHAT THE OIG RECOMMENDED:
all the Southeast Area’s administrative          We recommended using financial data
office’s financial data to an active Postal      to inform senior management and other
Service area through July 2012.                  responsible parties of issues requiring
                                                 resolution and elevate those issues until
Finance and Planning used financial              resolved. Also, we recommended
report data to prepare weekly and                establishing clear policies and
monthly reports for all areas but did not        procedures for managing financial data
call attention to the inappropriately            when closing an administrative office
reported Southeast Area budget and               and designating one functional group to
revenue and expense transactions.                oversee the process.
Further, the Postal Service did not have         Link to review the entire report
September 20, 2012

MEMORANDUM FOR:            CYNTHIA SANCHEZ-HERNANDEZ
                           ACTING VICE PRESIDENT, FINANCE AND PLANNING

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Use of Data Within Finance and Planning’s
                           Field Budget Process (Report Number FF-AR-12-005)

This report presents the results of our audit of the Use of Data Within Finance and
Planning’s Field Budget Process (Project Number 12BG018FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Stephen J. Masse
    Anthony E. Mazzei
    Jack L. Meyer
    James W. Kiser
    Pamela C. Curtis
    Corporate Audit and Response Management
Use of Data Within Finance and Planning’s                                                                          FF-AR-12-005
 Field Budget Process



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Monitoring the Southeast Area Budget After the Area Closed ........................................ 2

   Southeast Area Budget Was Not Eliminated or Reassigned After Office Closure ....... 3

   Revenue and Expenses Continued to Accumulate in the Closed Southeast Area ...... 4

   Postal Service Policies for Closing an Area Office ...................................................... 7

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Other Impacts ........................................................................................... 14

Appendix C: Management’s Comments ........................................................................ 15
Use of Data within Finance and Planning’s                                                                  FF-AR-12-005
 Field Budget Process



Introduction

This report presents the results of our audit of the use of data within Finance and
Planning’s field budget process (Project Number 12BG018FF000). Our objective was to
determine whether the U.S. Postal Service Finance and Planning Department
effectively used available data to monitor the field budget, revenue, and expenses
during the closing of Southeast Area. This self-initiated audit addresses financial risk.
See Appendix A for additional information about this audit.

In January 2011, the Postal Service announced an agency-wide restructuring and
redesign effort that resulted in closing the Southeast Area office. The restructuring
required the budget and account balances of the Southeast Area administrative office to
be closed out and reassigned to other Postal Service area administrative offices. 1 The
restructuring required using Finance Number Assignment (F-8) processes2 to reassign
the finance numbers3 of affected post offices and other operating entities to the new
administrative area within the Finance Number Control Master system.4 In addition to
properly reassigning finance accounts, the Postal Service had to transfer funds, assets,
commitments, contractual obligations, and budgets. The Field Budget Department
within Finance and Planning is responsible for developing and allocating the overall
area offices’ budget and monitoring the actual revenue and expenses and identifiying
variances against the area offices’ budget.

Properly establishing budgets and accurately reporting revenue and expenses are
critical because management uses this data for cross-functional reporting, data mining,
business performance analysis, and operating cost controls.

Conclusion

The Postal Service’s Finance and Planning Department did not effectively use data
available in financial reports to monitor the field budget and report revenue and expense
variances occurring after the Southeast Area administrative office was closed. The
Postal Service closed the Southeast Area Office in February 2011; however, through
July 2012, it had not reassigned Southeast Area administrative financial accounts to an
active Postal Service area.5 Further, the Postal Service did not have procedures in

1
  Currently the Postal Service field office structure includes seven area offices and 67 district offices. The Southeast
Area functions were realigned to report to the Southern, Eastern, and Capital Metro areas.
2
  The F-8 process, a Sarbanes-Oxley control, documents the steps involved in requesting, approving, and making
attribute changes or additions to the Finance Number Control Master system.
3
  All post offices and operating entities are assigned finance numbers for internal control. Finance numbers are 6-digit
or 10-digit unit finance number codes that correlate accounting data with the related Post Office location,
headquarters/management organization, or designated projects.
4
  The Finance Number Control Master system was designed to maintain the integrity of finance numbers used by
several computer applications for financial clients. It provides a central point of control for the maintenance of finance
numbers, hierarchies, and associated attributes, as well as unit information.
5
  Handbook F-8, General Classifications of Accounts and Finance Numbers, page 8, June 2009, updated with Postal
Bulletin revisions through September 24, 2009.
                                                              1
Use of Data Within Finance and Planning’s                                                           FF-AR-12-005
 Field Budget Process


place that adequately detailed the required tasks or a timeline to manage the transition.
Because accounts for the closed Southeast Area administrative office were not moved
to the gaining area, the budget was not eliminated or reassigned, and about $15 million
in revenue and expenses continued to accumulate in the Southeast Area financial
accounts after it closed in February 2011. Although we are not aware of any such
instances, incorrect business decisions and performance evaluations may result if they
are based on inaccurate or incomplete data. For example, management may renew
transportation contracts unnecessarily or for additional costs because of insufficient
data. The trend of streamlining the field office structure could continue. Without a
revised budget, adjusted to reflect anticipated savings from closing offices, the Postal
Service is at risk of not realizing those savings.

Monitoring the Southeast Area Budget After the Area Closed

The Postal Service’s Finance and Planning Department did not effectively use financial
data to monitor the field budget and report revenue and expense variances for the
closed Southeast Area. Postal Service guidance6 required the Postal Service to move
the closing Southeast Area accounts to an active Postal Service area. However, the
guidance did not have clear instructions detailing the timeline by functional area – what
needs to be done, by whom, and in what order. In addition, several Postal Service
organizations attempted to reassign or discontinue Southeast Area accounts, but the
actions were rejected because of ongoing financial activity in the accounts. The Postal
Service did not designate anyone to oversee the process and no one followed through
to ensure the Southeast Area’s account was either moved to the gaining area or
discontinued. Although the Southeast Area Office was closed in February 2011, when
we reviewed the available financial report data from March 2011 through July 2012, we
noted:

   The Southeast Area revenue and expense budget remained in place for each month
    through the end of fiscal year (FY) 2011. There was no budget established for the
    Southeast Area for FY 2012.

   The Postal Service reported about $15 million in revenue and expenses for the
    closed Southeast Area through July 2012. Revenue and expenses continue to
    accumulate in the closed area.

The Field Budget Department used financial report data7 to prepare weekly and monthly
summary reports by area. However, they stated they reported financial information for
the closed Southeast Area as part of a national total, not attributed to a gaining area.
The Southeast Area accounts were not properly reported under a gaining area, and
Field Budget did not call proper attention to the inappropriately reported budget,
revenue, and expense transactions. Further, Field Budget saw no value in eliminating

6
  Handbook F-8.
7
  Financial reports include the financial performance report in the Enterprise Data Warehouse (EDW), which shows
items such as current period and year-to-date actual, plan, and same period last year revenue and expenses. It
segregates activities by category such as revenue, salary and benefits, and supplies and services.

                                                        2
Use of Data Within Finance and Planning’s                                                               FF-AR-12-005
 Field Budget Process


the budget for the closed Southeast Area Office for FY 2011. Although we did not
identify any specific instances, without a revised budget, the Postal Service loses an
effective control over revenue and expenditures and, if not adjusted to reflect
anticipated savings from closing the area, the Postal Service is at risk of not realizing
those savings.

The Finance and Planning Department indicated that the restructuring was a joint effort
and several functional areas had a role in the Southeast Area closing. While Finance
and Planning is not solely responsible for reassigning the Southeast Area Office’s
budget, revenue, and expense transactions, they had a weekly opportunity to bring the
issue to light in meetings with the chief operating officer (COO) and others. If they had
acted on the information available in the financial reports, corrective action could have
been taken earlier in the process. Consequently, about $15 million in revenue and
expenses continued to accumulate in the Southeast Area financial accounts after it
closed in February 2011. These transactions were not included in the financial reports
of any of the three gaining Postal Service areas. Business decisions and performance
evaluations based on inaccurate or incomplete performance data may be incorrect.

Southeast Area Budget Was Not Eliminated or Reassigned After Office Closure

Businesses use budgets to control expenditures and monitor revenue, and to establish
a benchmark to evaluate performance. The January 2011 Postal Service restructuring
was designed to streamline operations and reduce expenses associated with
elimination of the Southeast Area. The Field Budget Department issued budget
transmittal letters8 in March and June 2011 to authorize adjustments for portions of the
Southeast Area budget. The authorized adjustments related to the transfer of two
network distribution centers (NDC)9 and some highway transportation contracts to the
three gaining Postal Service areas. This reduced the budget by about $1 million each
month, but left about two-thirds of the budget intact.

From March through September 2011, $18.5 million remained in the Southeast Area’s
budget. This amount should have been eliminated or reassigned to the three gaining
Postal Service areas. The Field Budget manager indicated that Human Resources (HR)
decided not to reassign or discontinue the Southeast Area Office due to a
reduction-in-force (RIF) associated with closing the area. Keeping the finance number
active enabled HR to identify impacted employees and ensure compliance with special
RIF procedures, such as non-competitive reassignments and restricted bidding.
However, HR personnel stated the only concern they expressed was keeping the
finance number active until the RIF date of September 9, 2011.


8
  Field Budget periodically issues budget transmittal letters as authorization for Postal Service areas to make budget
transfers, increases, or decreases. These adjustments ensure management can fairly assess an area’s performance
after a newly implemented program or other organizational change.
9
  A highly mechanized and automated mail processing facility formerly designated as a bulk mail center. NDCs
handle the distribution of Standard Mail ®, Periodicals, and Package Service pieces locally and to the network. They
also provide surface transfer and dispatch operations for outgoing and incoming Priority Mail®, First-Class Mail®,
                                ®
Periodicals, and Standard Mail pieces.

                                                          3
 Use of Data Within Finance and Planning’s                                                                 FF-AR-12-005
  Field Budget Process


 There were 117 employees at the Southeast Area Office before it was closed. By the
 RIF date, almost all of these employees found other positions within the Postal Service,
 or retired. Only one employee remained on the rolls.
                  Since there were no districts remaining in the Southeast Area, there
 was nothing to administer; therefore, there was no need for a budget. If the employees
 worked in temporary detail assignments or on the transition to new Postal Service
 areas, the budget and expenses related to those employees should have been
 transferred either to the gaining areas or to a headquarters functional area responsible
 for the closing.

 Without a revised budget, the Postal Service loses an effective control over
 expenditures and is at risk of not realizing planned savings. Further, business decisions
 based on inaccurate or incomplete performance data may be incorrect.

 Revenue and Expenses Continued to Accumulate in the Closed Southeast Area

 Although the Postal Service properly assigned the financial accounts of all former
 Southeast Area districts and their reporting units to their respective gaining Postal
 Service areas in March 2011, Southeast Area administrative accounts were not
 reassigned. We identified about $15 million in revenue and expenses that continued to
 accumulate for the closed Southeast Area through July 2012. Table 1 summarizes
 revenue and expenses that continued to accumulate after the Southeast Area closed.

                 Table 1. Revenue and Expenses Accumulated After Closing

      Financial
    Performance                  March – September                    October 2011 –
     Report Line                        2011                            July 2012                          Total
 Total All Revenue                        $1,065,925                         $1,545,433                   $2,611,358
 Total All Expense                         8,859,766                          3,526,304                   12,386,070
 Total                                                                                                   $14,997,428
                                                           10
Source: Financial Performance Report query in the EDW.

 Postal Service policy11 requires the closing of any finance number that is no longer
 needed in service due to restructuring. The Postal Service has a finance number
 advisory committee12 that reviews and approves changes, including discontinuing of the
 financial accounts due to a Postal Service area closure. Postal Service organizations
 attempted to reassign or close the Southeast Area accounts four times, but the requests
 were rejected:




 10
    Provides customers a single point of access to corporate data, organized at an enterprise level, to facilitate both
 cross-functional reporting and data mining/business analysis services.
 11
    Handbook F-8.
 12
    The finance number advisory committee consists of personnel from various headquarter functions and the
 accounting service centers.

                                                                4
Use of Data Within Finance and Planning’s                                                                 FF-AR-12-005
 Field Budget Process


    In March 2011 immediately after the restructuring, Revenue and Field Accounting 13
     wanted to reassign Southeast Area accounts to the Southern Area but Finance
     Business Solutions directed them to delay the action until after the
     September 9, 2011, RIF date because of concerns about how HR would identify
     impacted employees.

    In November 2011 and in March 2012, Organizational Effectiveness14 submitted a
     request to close the Southeast Area accounts and transfer the financial history to the
     Southern Area. The committee rejected the request because there was ongoing
     financial activity, including contractual commitments and assigned vehicles.

    At the end of March 2012, the manager, Accounting Data Mart, submitted another
     request to reassign Southeast Area accounts to the Southern Area. The committee
     denied the request because not all of the transportation contracts were resolved and
     there were actual expenses being reported in the finance accounts.

The finance number advisory committee rejected requests to close Southeast Area
financial accounts because of unresolved items such as assets and contracts that
needed to be reassigned and actual expenses still being reported. For example:

    Southeast Area Office building – Postal Service Headquarters groups still occupy
     part of the building in Memphis, TN along with some other government agencies.
     Therefore, the building, rental income, and related costs, such as depreciation and
     utility expenses, that were being charged to the Southeast Area could have been
     transferred to Postal Service Headquarters.

    Transportation expenses – Some highway transportation contracts written by the
     Southeast Area involved multiple districts (Inter-Sectional Center Facility15). The
     three gaining Postal Service areas did not agree on where these expenses should
     be recorded.

    Travel expenses – Some former Southeast Area employees did not change their
     personal profiles in eTravel16 and were still assigning expenses to the Southeast
     Area.

Although several Postal Service functional areas attempted to reassign or discontinue
the Southeast Area financial accounts, no one followed through with the process.
Similar issues were reported each time the process was initiated, but no corrective was
taken and the process stalled.

13
   Formerly Field and International Accounting.
14
   Organizational Effectiveness is part of the Postal Service Human Resources department. It works with business
stakeholders to identify and bring to the Postal Service’s cutting-edge employee classification, development, and
management processes.
15
   A postal facility that serves as the processing and distribution center for post offices in a designated geographic
area as defined by the 1st 3 digits of the ZIP Codes of those offices. Some serve more than one 3-digit ZIP Code
range.
16
   eTravel is the online application Postal Service employees use to create work travel expense reports.

                                                            5
Use of Data Within Finance and Planning’s                                       FF-AR-12-005
 Field Budget Process



We visited budget managers and staff at all three gaining Postal Service areas
(Southern, Eastern, and Capital Metro) and discussed why revenue and expenses
continued to be reported for the Southeast Area Office after it had been closed. Eastern
and Capital Metro Area budget managers both stated they took on revenue, expenses,
and an appropriate portion of the Southeast Area budget for their reassigned districts.
Both managers thought that anything remaining for the Southeast Area belonged to
Southern Area. However, the Southern Area budget manager thought that some of the
expenses belonged to the other gaining areas or to headquarters. Several key Southern
and Southeast area managers who understood the initial issues retired during or shortly
after the restructuring. Further, there was no centralized oversight to step in and resolve
the uncertainty surrounding the reassignment of assets, contracts, revenue, and
expenses. As a result, transactions continued to accumulate at the closed Southeast
Area Office through July 2012.

If the Postal Service discontinued the Southeast Area financial accounts immediately
after the restructuring, any expenses posted to those accounts would have caused an
error in the reporting system and forced a resolution of the issues. Even if this action
was delayed until after the effective RIF date of September 9, 2011, the 7 prior months
were available to resolve the issues that repeatedly prevented closure.

As previously indicated, policy required the Postal Service to reassign Southeast Area
accounts to an active Postal Service area. However, current policy does not have clear
procedures detailing the timeline by functional area of what needs to be done, by whom,
and in what order. Furthermore, there were many groups involved in the restructuring,
and no centralized oversight is identified in the procedures to coordinate the efforts.
Because the Postal Service did not properly reassign the closed Southeast Area
accounts, about $15 million in revenue and expenses continued to accumulate in the
Southeast Area after it closed. These transactions were not included in the financial
reports of any gaining Postal Service area. Although we are not aware of any such
instances, incorrect business decisions and performance evaluations may result if they
are based on inaccurate or incomplete data. For example, management may renew
transportation contracts unnecessarily or for additional costs because of insufficient
data. We consider $2.6 million in revenue and $12.4 million in expenses accumulated
from March 2011 through July 2012 as an other impact (data integrity). See Appendix B
for information on the other impacts.

In a meeting on June 7, 2012, we discussed corrective actions in process with the
Southern Area budget staff. To resolve the issues preventing discontinuance of the
Southeast Area financial accounts, the staff reported they were:

   Working with the Facility group to transfer the former Southeast Area office building
    to Postal Service Headquarters.

   Working with Supply Management to have transportation contract issues resolved.



                                             6
Use of Data Within Finance and Planning’s                                     FF-AR-12-005
 Field Budget Process


   Conducting research and preparing journal entries to transfer FY 2012 financial
    transactions, such as rental income and personnel expenses, to the appropriate
    accounts.

The Southern Area provided an estimated completion date of no later than
September 30, 2012. Because these corrective actions are in process, we do not plan
to make any recommendations to the Southern Area.

Postal Service Policies for Closing an Area Office

During our audit, area budget managers stated the current procedures for closing an
administrative office were not complete. We identified the procedures for closing an
area office in Handbook F-8. There were only two steps:

   Area offices that are closing will be realigned to another area office.

   Any finance numbers under the closing area must be realigned to a gaining district in
    the gaining area.

It is usually up to the gaining Postal Service area to determine what needs to be done.
All three area budget managers thought that a complete guide or written procedures for
closing administrative offices would prevent issues such as those experienced following
the Southeast Area closing. Such a guide could detail the reassignment or discontuance
tasks required by each functional area and provide a timeline for completion.

During a meeting with Finance and Planning, Accounting, and Operations managers
from Postal Service Headquarters, we discussed the insufficient guidance relating to the
closing of an area office. Management acknowledged that having instructions or
procedures might have helped in the process of closing the Southeast Area. However,
they believed area consolidations did not occur on a regular basis and did not see a
need for establishing procedures.

In recent years, the Postal Service has initiated several consolidations intended to
reduce costs and streamline its field office structure. From FYs 2002 to 2011, the Postal
Service closed four area offices and 18 district offices and centralized Accounting, HR,
and other services. Although Postal Service management considered the impact from
closing this area immaterial, the trend of streamlining the field office structure could
continue.

Because current procedures for closing a Postal Service area were not complete and
there was no centralized oversight, the risks associated with inadequate controls could
result in financial losses to the Postal Service. Furthermore, management uses this data
for business performance analysis, operating cost control, cross-functional reporting,
and data mining. Reliance on inaccurate or inadequate financial data could lead to
faulty assumptions and conclusions.



                                              7
Use of Data Within Finance and Planning’s                                      FF-AR-12-005
 Field Budget Process


Recommendations

We recommend the acting vice president, Finance and Planning:

1.    Use financial data to inform senior management and other responsible parties of
      financial issues requiring resolution and elevate those issues until they are
      resolved.

We recommend the acting vice president, Finance and Planning, in coordination with
the vice president, controller:

2.    Establish clear and understandable policies and procedures for managing financial
      data when closing Postal Service area administrative offices. Policies should
      clearly identify roles, responsibilities, and timelines and consider designating one
      functional group to oversee the administration of the process and arbitrate
      differences.

Management’s Comments

Management agreed with both the recommendations, indicating all management within
the Finance and Planning Department will elevate and track the vast majority of issues
they encounter to resolution. In addition, the vice president, controller, and vice
president, Finance and Planning, will work with the COO to provide detailed instructions
regarding the closure of an area office. This information will be shared with the U.S.
Postal Service Office of Inspector General (OIG) but will not be published until
immediately after the announcement of the next area office closing. The target
completion date is January 15, 2013.

Management agreed with our finding that the Postal Service did not have procedures in
place that adequately detailed the required task or a timeline to manage the transition of
financial data. Management partially agreed that the Postal Service’s Finance and
Planning Department did not effectively use available data to monitor the field budget,
revenue and expenses variances after the closing of the Southeast Area Office.
Management stated this implied that they did not monitor the overall $55 billion in total
field expenses as opposed to the $15 million in revenue and expenses at the Southeast
Area Office. Furthermore, management stated they called attention to the issue, but
agreed they did not follow through to a final resolution.

Management agreed that because financial accounts were not moved, about $15 million
in revenue and expenses continued to accumulate in the Southeast Area accounts after
the area closed. Also, while management generally agreed with the issues in the report,
they provided comments clarifying statements in the report. See Appendix C for
management’s comments, in their entirety.




                                             8
Use of Data Within Finance and Planning’s                                       FF-AR-12-005
 Field Budget Process


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1 and 2,
and corrective actions should resolve the issues identified in the report. In addition, we
considered management’s comments to statements in the report and revised the report
as necessary to clarify.

We agree data were available for the Southeast Area from various sources; however,
the report indicated summary reports prepared by Field Budget, and posted to the Field
Budget website, did not report the revenue and expenses for the Southeast Area as a
separate line item. Our review objective specifically stated that we would determine
whether the Postal Service Finance and Planning Department effectively used available
data to monitor the field budget, revenue, and expenses related to the closing of the
Southeast Area. We did not include a review of Finance and Planning’s use of data to
monitor the overall field budget and, therefore, did not imply that Finance and Planning
did not effectively use data to monitor the overall field expenses. In addition, in several
meetings, Finance and Planning’s management told us they had weekly meetings with
the COO and others. However, they never brought the Southeast Area issue to light in
meetings because management believed other groups might have reported the issue to
the COO. As stated in the report, if management had acted on the information available
in the financial reports, corrective action relating to the closed Southeast Area Office
issues may have occured earlier in the process.




                                             9
Use of Data Within Finance and Planning’s                                        FF-AR-12-005
 Field Budget Process



                             Appendix A: Additional Information

Background

Field Budget reports to the vice president, Finance and Planning, and chief financial
officer. In addition to developing and allocating the overall area offices’ budget, the Field
Budget Department monitors revenue and expense performance against the budget
and prepares reports using data gathered from EDW queries and other sources. These
reports are posted on the Field Budget website or provided to the COO and other
executive staff for subjects such as: revenue and expense variances, trends, cluster
and area rankings, overtime, and complement. The department also meets with the
COO and staff weekly to report on and discuss budget items of concern.

Businesses use budgets to control expenditures and monitor revenue. By comparing
expenditures to a corresponding budget, businesses can prevent overspending or
recognize underspending that might jeopardize a program’s effectiveness. It is generally
understood when budgets are developed that changes will be required by the end of the
budget period.

In the Postal Service, area offices usually request field budget adjustments, but
adjustments can also be initiated as a result of implementing a headquarter program.
The Field Budget Department issues budget transmittal letters authorizing budget
adjustments. Budget transmittal letters spell out the Postal Service areas involved and
how much the budget should be adjusted.

In January 2011, the Postal Service announced an agency-wide restructuring and
redesign effort that included closing the Southeast Area Office. The Southeast Area
Office, based in Memphis, TN was closed to help streamline Postal Service operations.
In March 2011, all Southeast Area district administrative offices, post offices, plants, and
motor vehicle service financial accounts were reassigned under the new Southern Area,
with two exceptions: the Tennessee District moved to the Eastern Area and the Atlanta
District moved to the Capital Metro Area.

Restructuring required all financial accounts from the closing area be reassigned to an
active Postal Service area or discontinued. Historical data for any discontinued
accounts must be mapped to an active area’s accounts, which requires submission of
an F-8 processing form. The Postal Service uses the F-8 process to make changes to
finance number data in the Postal Service’s Finance Number Control Master system.
The area designated to receive the closing area’s accounts usually requests the
changes.




                                             10
Use of Data Within Finance and Planning’s                                        FF-AR-12-005
 Field Budget Process



Before submitting a discontinuance request, the following conditions must be met:

   No active employees are assigned to the closed office.

   No assets are attached to the closed office.

   There can be no active or pending charges to the closed office, including purchase
    orders, open contracts, or expenses.

A finance number advisory committee reviews all finance number discontinuance
requests for compliance with the above conditions. Committee membership consists of
personnel from various headquarter functions and the accounting service centers.
When a non-compliance is identified, the process is halted and a report is provided to
the requestor. When the requestor resolves all issues and the report is clear, the
Eagan, MN Accounting Service Center processes the change in the Finance Number
Control Master system. Data entered in the Finance Number Control Master system
feed into EDW.

Discontinued accounts require transfers of funds, assets, commitments, and contractual
obligations. Additionally, all of the financial history must transfer to the gaining entity.
For example, in the Postal Service’s 2011 restructuring, Southern, Eastern, and Capital
Metrol areas were the gaining entities.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service’s Finance and Planning
effectively used available data to monitor field budget, revenue, and expenses during
the closing of the Southeast Area. To accomplish our objective, we:

   Interviewed Postal Service Headquarters and area office managers to obtain
    information on the budget, expenditures, fund allocation, budget adjustments, and
    monitoring processes.

   Executed EDW queries and analyzed Financial Performance Report data for
    FYs 2011 and 2012 (October 2010 through July 2012). This data included field
    budget plan, actual, and year-to-date revenue and expenses for Postal Service
    areas, and adjustments.

   Determined what data/information the Field Budget Department uses to monitor the
    field budget. In addition, determined whether the data/information used by the Field
    Budget Department are sufficient and useful.

   Interviewed Southern, Eastern, and Capital Metro area finance managers to
    determine why revenue and expenses continue to be reported to the closed
    Southeast Area Office.


                                             11
Use of Data Within Finance and Planning’s                                                             FF-AR-12-005
 Field Budget Process



     Discussed procedures to close the Southeast Area Office with headquarters groups,
      Field Budget, Accounting, HR, and Operations, as well as Southern, Eastern, and
      Capital Metro area management; and compared current practices with the Postal
      Service procedures.

     Discussed the impact on the National Performance Assessment 17 system of the
      Postal Service not including the expenses charged to Southeast Area in any
      remaining Postal Service areas’ scores.

We conducted this performance audit from January through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 20, 2012, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems. We did not test the validity of controls over these systems;
however, we verified the accuracy of the data by confirming our analysis and results
with Postal Service managers and other postal data sources. We determined that the
data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                                                                            Final
                                                                           Report             Monetary
             Report Title             Report Number                         Date               Impact
     Chief Information Officer’s        IT-AR-11-007                     8/25/2011              None
     Budget Data
     Report Results: The review of the chief information officer’s budget and actual
     expense data for FYs 2010 and 2011 revealed 40 inappropriately assigned
     reporting units and incorrect aggregations of data under the current financial
     hierarchy maintained in the Finance Number Control Master system.
     Management agreed to assess the current process to carry out reorganization
     and redesign activities; however, they disagreed that enhanced validation
     procedures and controls were necessary. The report identified $14 million of
     other impact.


17
  A system of scorecards used to monitor the performance of the Postal Service and its individual units across the
nation. The National Performance Assessment system supports the Postal Service’s Pay for Performance program
and Performance Evaluation System.

                                                         12
Use of Data Within Finance and Planning’s                                     FF-AR-12-005
 Field Budget Process


                                                              Final       Monetary
          Report Title              Report Number         Report Date       Impact
  Field Offices’ Role in Cost-       GAO-12-506           4/25/2012          None
  Reduction and Revenue-
  Generation Efforts
  Report Results: This report discussed (1) the role of area and district
  employees in implementing the Postal Service’s cost-savings and revenue-
  generation efforts, and (2) the Postal Service’s actions to consolidate its field
  office structure in 2011 and the impact of this consolidation. The Government
  Accountability Office did not make recommendations in this report.




                                            13
Use of Data Within Finance and Planning’s                                                           FF-AR-12-005
 Field Budget Process



                                      Appendix B: Other Impacts

     Recommendation                       Impact Category                        Amount
           2                               Data Integrity18                     $14,997,428




18
  Data used to support management decisions that are not fully supported or completely accurate. This can be the
result of flawed methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.

                                                        14
Use of Data Within Finance and Planning’s                      FF-AR-12-005
 Field Budget Process


                           Appendix C: Management’s Comments




                                            15
Use of Data Within Finance and Planning’s        FF-AR-12-005
 Field Budget Process




                                            16
